APPENDIX

TABLE OF CONTENTS
Appendix A:

Supreme Court Order: A19-1816
(Feb. 18, 2020)...........................
la
Appendix B: Supreme Court Order: A19-13 04
(May. 19, 2020)..........................
2a
Appendix C:
Appellate Order Denying Writ
(Dec. 17,2019)...........................
3a
Appendix D:
Appellate Opinion Dismissing Claims
. (Feb. 24, 2020).......................
5a
Appendix E:
Standing Order (Mar. 5, 2018).......11a
Appendix F:
Compilation of Cases Involving Wells
Fargo as a First-Named Plaintiff
(Jan. 1,2014-Dec. 31,2018).......14a
Appendix G:
Compilation of Cases Involving Wells
Fargo as a First-Named Defendant
(Jan. 1,2014-Dec. 31,2018).......16a
Appendix H:
Detail of Civil-Other Cases Involving
Wells Fargo as a First-Named
Defendant
(Jan. 1,2014-Dec. 31,2018).......18a
Appendix I:
Detail of Appellate Cases Involving
Wells Fargo as a First-Named Party
(Jan. 1,2014-Dec. 31,2018).......22a
Appendix J:
Detail of Contested Minnesota State
Court Cases Involving Wells Fargo as
a First-Named Party
(Jan. 1,2014-Dec. 31,2018)....... 24a
Appendix K:
Detail of Contract and Other Civil
Cases With A Jury Trial (Held) Event
Code But With No Jury Verdict
(Jan. 1,2018-Dec. 31,2018).......30a

la

APPENDIX A
State of Minnesota
In Supreme Court
A19-1816
In re Jerald Hammann, Petitioner,
Jerald Hammann, Petitioner,
vs.

Wells Fargo Bank NA, Respondent.
ORDER
Based upon all the files, records and proceedings herein,
IT IS HEREBY ORDERED that the petition of Jerald
Hammann for further review be, and the same is, denied.
Dated: February 18, 2020

BY THE COURT:
/s/ G. Barry Anderson
G. Barry Anderson
Associate Judge

2a

APPENDIX B
State of Minnesota
In Supreme Court
A19-1304
Jerald Hammann, Petitioner,
vs.
Wells Fargo Bank NA, Respondent.
ORDER
Based upon all the files, records and proceedings herein,
IT IS HEREBY ORDERED that the petition of Jerald
Hammann for further review be, and the same is, denied.
Dated: May 19, 2020 BY THE COURT:
/s/ Lorie S. Gildea
Lorie S. Gildea
Chief Judge

3a

APPENDIX C

STATE OF MINNESOTA
IN COURT OF APPEALS
A19-1816
In re Jerald Hammann, Petitioner,
Jerald Hammann, Petitioner,
vs.
Wells Fargo Bank NA, Respondent.
ORDER
Considered and decided by Cleary, Chief Judge,
Johnson, Judge; and Segal, Judge.
Based upon all the file, record, and proceedings, and for
the following reasons:
Petitioner Jerald Hammann seeks a writ of prohibition,
challenging the orders filed in the district court denying his
motion to remove the assigned judge under Minn. R. Civ. P.
63.03, denying reconsideration of that order, and denying a
request to disqualify all judges from considering the
underlying case or Hammann’s request for recusal.
Prohibition may be an appropriate remedy when a party
seeks to remove a judge as a matter of right. See McClelland
v Pierce, 376, N.W.2d 217 (1985). But petitioner previously

4a
removed a judge as a matter of right and that is not the basis
for the relief sought in this case. Prohibition is an
extraordinary remedy, although it may be appropriate upon a
showing that the district court exceeded its jurisdiction or
that the matter at issue would be decisive of the entire case,
where there is a challenge to the production of information
on the basis of privilege, or where there is an unsettled
question of practice affecting all litigants. Thermorama Inc.
v. Shiller, 135 N.W.2d 43, 46 (Minn. 1965); see also
Underdahl v. Comm ’r ofPub. Safety (In re Comm ’r ofPub.
Safety), 735 N.W.2d 706, 710 (Minn. 2007). Petitioner
Hammann has not established that any of these criteria have
been satisfied. Nor has petitioner established that he lacks an
ordinary remedy that would be adequate.
Petitioner Hammann has not established that the “facts
and circumstances” on which he relies would cause a
reasonable person to believe that all judges are unlikely to be
neutral when considering petitioner’s claims. And petitioner
has not established that he was entitled to a jury trial before
dismissal of his claims under Minn. R. Civ. P. 5.04(a) or on
his motion to vacate.
IT IS HEREBY ORDERED: The petition for prohibition
is denied in its entirety.
Dated: December 17,2019

BY THE COURT:
/s/ Edward J. Cleary
Edward J. Cleary
Chief Judge

5a

APPENDIX D
State of Minnesota
In Court of Appeals
A19-1304
Jerald Hammann, Appellant,
vs.
Wells Fargo Bank NA, Respondent.
Filed February 24,2020 Affirmed in part and reversed in
part Bjorkman, Judge
Hennepin County District Court File No. 27-CV-HC-16-719
Jerald Hammann, Minneapolis, Minnesota (pro se appellant)
Kristina Kaluza, Dykema Gossett PLLC, Minneapolis,
Minnesota (for respondent)
Considered and decided by Johnson, Presiding Judge;
Bjorkman, Judge; and Slieter, Judge.
UNPUBLISHED OPINION
BJORKMAN, Judge
Appellant challenges orders that effectively dismissed his
action seeking to assert claims related to a closed housing
court matter and imposed sanctions. Because appellant did
not timely file his action, we affirm its dismissal. But we

6a
reverse, in part, because the law does not support the
sanction awards.
FACTS
Appellant Jerald Hammann entered into a lease for
residential property in Hennepin County in 2010. The
property owners defaulted on their mortgage later that year,
and respondent Wells Fargo initiated foreclosure
proceedings. After several years of litigation, Wells Fargo
recovered possession of the property in December 2015. In
February 2016, Hammann commenced a lockout action
against Wells Fargo, asserting claims for ouster, unlawful
exclusion or removal, and breach of landlord covenants. The
district court dismissed the lockout action with prejudice,
and this court affirmed that decision.
On April 23, 2018, Hammann served what he describes
as a supplemental complaint in the lockout action on Wells
Fargo. The supplemental complaint relates to personal
property Hammann lost when Wells Fargo repossessed the
residential property in December 2015. Hammann alleges
that he was unable to remove thousands of dollars’ worth of
personal property (property) before the lockout and was
unable to recover it from Wells Fargo, despite his attempts to
contact the bank.
On approximately June 1, 2019, Hammann attempted to
electronically file the supplemental complaint in the closed
lockout file. The electronic filing system twice rejected the
supplemental complaint. The district court administrator
indicated that the supplemental complaint was rejected first
because it should have been filed as a civil case instead of a
housing court case, and second because it was an “existing
case.” On June 13, Hammann moved the district court to
compel the district court administrator to accept the

7a
supplemental complaint for filing pursuant to Minn. R. Civ.
P. 5.04(c).
On June 19, the district court denied Hammann’s motion
as untimely and barred by res judicata. And the court deemed
Hammann a frivolous litigant pursuant to Minn. R. Civ. P.
11.03(b), requiring him to pay $300 as a sanction before he
could file any further motions or pleadings relating to the
property. Hammann paid the sanction and requested
permission to seek reconsideration of the June 19 order. The
court denied the request in a July 23 order.1 The district court
determined that Hammann was essentially challenging the
judgment in the lockout action and had not shown why res
judicata did not bar his claims. The district court imposed an
additional $500 in sanctions and stated that it may issue a
show-cause order and restrict Hammann’s access to district
court services if he continued to make frivolous filings.
Hammann appeals the two orders.2
DECISION
I. The district court orders are appealable.
As a preliminary matter, Wells Fargo argues that the
challenged orders are not final and appealable under Minn.
R. Civ. App. P. 103.03, so this court lacks jurisdiction over
the appeal. The issue of appellate jurisdiction is a question of
law that we review de novo. Howard v. Svoboda, 890
N.W.2d 111, 114 (Minn. 2017).

1 A housing court referee recommended the June 19 and July 23
orders. Both orders were approved by a district court judge pursuant to
Minn. Stat. § 484.013, subd. 5 (2018).
2 In their respective appellate briefs, the parties indicate that
Hammann seeks recovery of his property in a new action filed in district
court on June 20, 2019.

8a
An appeal may be taken “from a final judgment.” Minn.
R. Civ. App. P. 103.03(a). “An order dismissing all claims
constitutes a final judgment because it ends the litigation on
the merits and leaves nothing for the court to do but execute
the judgment.” Woischke v. Stursberg & Fine, Inc., 920
N.W.2d 419, 422 (Minn. 2018). Here, the first district court
order denied Hammann’s motion to compel filing of his
supplemental complaint and imposed a $300 sanction. The
order ended the litigation on the merits because it dismissed
all the claims in Hammann’s supplemental complaint.
Accordingly, the first order is final and appealable, and this
court has jurisdiction over the appeal.
An order denying a request to bring a motion for
reconsideration is not appealable. Buhl v. State, 922 N.W.2d
435, 442 (Minn. 2019). But the July 23 order imposed a
$500 sanction on Hammann and conditioned his ability to
seek further relief in court. Orders imposing sanctions are
final and appealable. Minn. R. Gen. Prac. 9.05. Hammann’s
appeal is properly before this court.
II. Hammann’s action is deemed dismissed with
prejudice by operation of law.
Minn. R. Civ. P. 3.01(a) provides that a civil action is
commenced “when the summons is served upon [the]
defendant.” But “[a]ny action that is not filed with the court
within one year of commencement against any party is
deemed dismissed with prejudice against all parties unless
the parties within that year sign a stipulation to extend the
filing period.” Minn. R. Civ. P. 5.04(a). Neither the
defendant nor the court needs to take any action to effectuate
rule 5.04(a); an action is deemed dismissed with prejudice by
operation of law once the one-year deadline passes. Gams v.
Houghton, 884 N.W.2d 611, 617 (Minn. 2016).

9a
The record reveals that Hammann served his
supplemental complaint on Wells Fargo on April 23, 2018.
Hammann identified April 23, 2018, as the service date in
the civil cover sheet he attempted to file along with the
supplemental complaint.3 Wells Fargo agrees that the
complaint was served on that date. Hammann did not attempt
to file the complaint with the district court until well after
one year had passed. There is no evidence in the record that
the parties stipulated to extend the filing period.
Because Hammann did not timely file his supplemental
complaint, his action was automatically dismissed with
prejudice. The district court did not err in denying his motion
to compel filing.4
III. The district court abused its discretion by sanctioning
Hammann.
By filing a pleading or written motion with a court, a
self-represented litigant certifies that the pleading or motion
is not being presented for an improper purpose, that the
claims are warranted by existing law, and that the allegations
and other factual contentions have evidentiary support.
Minn. R. Civ. P. 11,02(a)-(c). A district court may sanction a
litigant for violating rule 11.02. Minn. R. Civ. P. 11.03. We
review a sanction award for abuse of discretion. Collins v.
Waconia Dodge, Inc., 793 N.W.2d 142, 145 (Minn. App.
2011), review denied (Minn. Mar. 15, 2011). A district court
3 For the first time on appeal, Hammann denies that he served the
supplemental complaint on that date and points out that he did not submit
an affidavit of service. We are not persuaded by Hammann’s effort to
create an “issue” as to the service date based on his own failure to file an
affidavit of service.
4 Because rule 5.04 compels dismissal of Hammann’s action, we need
not address the district court’s other ground for denying his motion to
compel filing.

10a
abuses its discretion when its decision is arbitrary, based on
an erroneous view of the law, or against the facts in the
record. Kalenburg v. Klein, 847 N.W.2d 34, 41 (Minn. App.
2014).
Hammann contends that the district court violated rule 11
by imposing sanctions without providing him notice and an
opportunity to be heard. We agree. Rule 11.03 provides, “If,
after notice and a reasonable opportunity to respond, the
court determines that Rule 11.02 of these rules has been
violated, the court may ... impose an appropriate sanction
upon the ... parties that have violated Rule 11.02 or are
responsible for the violation.” (Emphasis added.) Similarly,
rule 9.01 of the General Rules of Practice for the District
Courts, which addresses frivolous litigation, provides that a
district court may, “on its own initiative and after notice and
hearing,” impose preconditions on a frivolous litigant’s
filing of new claims or motions. (Emphasis added.) Here, the
district court twice imposed monetary sanctions and
restrictions on Hammann’s litigation rights without
providing Hammann notice that it was considering doing so
or the opportunity to be heard. The district court’s failure to
follow these required procedures constitutes abuse of
discretion. Cf. In re Rollins, 738 N.W.2d 798, 804 (Minn.
App. 2007) (citing rule 11.03 and reversing sanctions
imposed under statute containing identical language when
district court failed to follow the show-cause procedure).
Accordingly, we reverse the portions of the challenged
orders that impose monetary sanctions and limit Hammann’s
future ability to seek relief in district court.
Affirmed in part and reversed in part.

11a

APPENDIX E

STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF HENNEPINFOURTH JUDICIAL DISTRICT
Standing Order re Certain Real Property-Related Civil
Cases
WHEREAS, effective October 1, 2014, the Fourth Judicial
District’s practice regarding certain real property-related
cases has been to assign these cases to referees designated to
handle Housing Court cases, to-wit:
(i) Hazardous buildings (Minn. Stat. §§ 463.15-463.24);
(ii) Hazardous excavation/vacant buildings (Minn. Stat.
§§ 463.25-463.27);
(iii) Tenant remedies actions (Minn. Stat. §§ 504B.395504B.471);
(iv) Emergency tenant remedies actions (Minn. Stat. §
504B.381);
(v) Municipal building/housing code enforcement cases
under the Uniform Declaratory Judgment Act
(Minn. Stat. §§ 555.01-555.16);
(vi) Public nuisance enforcement (Minn. Stat. §§
617.80-617.87);
(vii) Commercial and other non-residential property
evictions;
(viii) Mortgage foreclosures; and
(ix) Contract for deed cancellations.
WHEREAS, certain of these real property-related cases do
not involve residential rental housing and as such are not

12a
subject to the Fourth Judicial District’s Housing Calendar
Consolidation Program, and are not governed by Minn.
Stat.§ 484.013 (Housing Court Consolidation Program) or
the Housing Court Rules incorporated into Title VII of the
Minnesota General Rules of Practice; and
WHEREAS, the Minnesota Rules of Civil Procedure apply
to real property-related cases that do not fall under the
authority of the Housing Calendar Consolidation Program;
and
WHEREAS, the hearing of these cases by referees familiar
with real property-related issues including but not limited to
those enumerated in the first WHEREAS clause above,
allows for consistency and continuity in the disposition of
such cases, and those referees have been hearing these types
of cases as directed by the Chief Judge of Hennepin County
District Court since October 1, 2014; and
WHEREAS, pursuant to Minn. Stat.§ 484.70, “All referees
are subject to the administrative authority and assignment
power of the chief judge of the district... and are not limited
to assignment to family, probate, juvenile or special term”;
and
WHEREAS, under Minn. Stat § 484.70, the chiefjudge may
assign to referees cases which do not fall under the authority
of the Housing Court, including real property-related civil
cases such as those above- described.
Now, Therefore, IT IS HEREBY ORDERED:
1. Referees currently assigned to hear Housing Court
matters are hereby authorized to hear civil cases
which are real property-related as described in the
first WHEREAS clause above, but which do not
involve residential rental housing.

13a
2. Real property-related cases which do not involve
residential rental housing shall be filed using the case
type of Civil-Other (27-CV).
3. When a real property-related case not subject to
Minnesota Statutes § 484.013 is filed with an “HC”
designation, court administration is authorized to refile the case and designate it “Civil- Other” and the
petitioner/plaintiff shall not incur an additional filing
fee.
4. Court administration is authorized to assign these
designated real property-related Civil-Other cases to
referees of the Fourth Judicial District in accordance
with established policies and procedures.

Dated: March 5, 2018 BY THE COURT:
/s/ Ivy S. Bemhardson
Ivy S. Bemhardson
Chief Judge
Hennepin County District Court

14a

APPENDIX F
Cases in Which Wells Fargo is the First-Named Plaintiff
January 1, 2014 - December 31,2018
Case Type

Civil Other/Misc.
Conciliation

Number of Cases
1,041
1

Confession of Judgment

201

Consumer Credit Contract

507

Contract

183

Default Judgment
Employment
Eviction (UP)
Quiet Title
Receivership
Reduced Mortgage Redemption
Replevin

1,697
1
853
41
3
42
2

Restitution Judgment

11

Tax Court

18

Torrens

I

Transcript Judgment

4

Grand Total

4.606
2

The above table represents cases filed in Minnesota state
courts from January 1, 2014 through December 31, 2018 in
which Wells Fargo (in any of its corporate names), was the

15a
first-named Plaintiff. The following case types are removed
from this listing: Appointment of Trustee, Condemnation,
Condemnation Appeal, Foreign Judgment, Forfeiture,
Probate (all forms), Summary Administration, Transcript
Judgment From Other Minnesota County, and Trust. These
case types were removed because it is believed that Wells
Fargo's role in these cases is either tangential to the action,
represents an action not initiated in Minnesota, or is a
duplicate of an action initiated in Minnesota.
Information obtained by Jerald Hammann from Minnesota
Trial Court Public Access (MPA) Remote View from August
6-12, 2019.

16a

APPENDIX G
Cases in Which Wells Fargo is the First-Named Defendant
January 1, 2014 - December 31,2018
___________Case Type

Civil Other/Misc.
Conciliation
Conciliation Appeal
Consumer Credit Contract
Contract
Default Judgment
Employment
Personal Injury

Quiet Title
Transcript Judgment
Grand Totaf

Number of Cases
67
48
6
1
14
1
2
4

13
3
159

The above table represents cases filed in Minnesota state
courts from January 1, 2014 through December 31, 2018 in
which Wells Fargo (in any of its corporate names), was the
first-named Defendant. The following case types are
removed from this listing: Appointment of Trustee,
Condemnation, Condemnation Appeal, Foreign Judgment,
Forfeiture, Probate (all forms), Summary Administration,
Transcript Judgment From Other Minnesota County, and
Trust. These case types were removed because it is believed
that Wells Fargo's role in these cases is either tangential to

17a
the action, represents an action not initiated in Minnesota, or
is a duplicate of an action initiated in Minnesota.
Information obtained by Jerald Hammann from Minnesota
Trial Court Public Access (MPA) Remote View from August
6-12,2019.

18a

APPENDIX H
Civil-Other Cases in Which Wells Fargo is the FirstNamed Defendant
January 1, 2014 - December 31, 2018

27-CV-14-1597

Notes from File Review
Removed to federal court

02-CV-14-763

Removed to federal court

82-CV-14-1337

Removed to federal court

08-CV-14-437

Settled

02-CV-14-3119

Settled

27-CV-14-9807

82-CV-14-3551

Default judgment on an attorneys lien on an
airplane. Wells Fargo did not appear to
contest.
Plaintiffs successfully sought title to a
motor home they purchased.
Removed to federal court

10-CV-14-867

Removed to federal court

27-CV-14-15 883

Settled

62-CV-14-7781

Removed to federal court

27-CV-14-19555

Settled

27-CV-14-19748

27-CV-14-21010

Wells Fargo did not oppose default
judgment___________________________
Focused on whether a transfer from Wells
Fargo to Freddie Mac constituted a sale
requiring a right of first refusal. Court ruled
that it did not constitute a sale because
Freddie Mac was never a third party.
See Appendix H paragraph 1.

27-CV-15-3909

Removed to federal court

Case Number

18-CV-14-2745

05-CV-15-210

19a
27-CV-15-8676

Dismissal without prejudice

27-CV-15-8904

18-CV-15-2685

Wells Fargo obtained all of the assets of a
company pursuant to a secured collateral
surrender. Another creditor sued Wells
Fargo for receiving more than the total
amounts validly secured, when it had a
$25,097 receivable.______ ____ _____
Wells Fargo was an intervening defendant
in an action involving a family dispute
involving inheritance.
Removed to federal court

27-CV-15-14683

Removed to federal court

62-CV-15-5044

Wells Fargo did not contest reduction of 6month redemption period on primary
mortgage to 5 weeks___________________
Default judgment entered. HOA redemption
only subject to Wells Fargo's first
mortgage. All other mortgages eliminated.
Settled

62-CV-15-4229

27-CV-15-14998

27-CV-15-17809
02-CV-15-5095
66-CV-15-2686

62-CV-15-6618
02-CV-16-426

27-CV-HC-16-719

Wells Fargo did not contest reduction
redemption period to 5 weeks___________
Complaint filed by attorney, then attorney
withdrew. Plaintiff did not continue to
pursue claims and action was dismissed for
failure to prosecute.
Removed to federal court
Wells Fargo did not contest that a mortgage
document in favor of Bank of America was
lost, misplaced, or inadvertently not
completed. Bank of America was entitled to
the record satisfaction of the mortgage.
See Appendix H paragraph 3.

27-CV-16-4526

Removed to federal court

62-CV-l 6-2391

Settled

61-CV-16-212

Wells Fargo stipulated to annulment of
sheriffs sale because of defects in Notice
and service.
Removed to federal court

27-CV-16-7370

20a
55-CV-l 6-4203

See Appendix H paragraph 2.

70-CV-16-18930

Removed to federal court

70-CV-16-21531

Removed to federal court

34-CV-l 6-558

31-CV-17-29

Co-pending action. Plaintiff failed to
properly serve Wells Fargo and case was
closed administratively for inaction.
Settled

82-CV-17-104

Removed to federal court

62-CV-17-1704

Removed to federal court

27-CV-17-5219

Settled

85-CV-17-808

50-CV-17-1336

Wells Fargo did not object to correction of
a Transfer on Death Deed to correct an
error that prevented its filing. Wells Fargo
remained the primary mortgage on the
property. All other claims were
extinguished._______________________
Dismissal without prejudice

70-CV-17-12018

Removed to federal court

02-CV-17-3767

Removed to federal court

27-CV-17-12834

Removed to federal court

02-CV-17-4768

Removed to federal court

62-CV-18-957

Removed to federal court

73-CV-l 8-3523

73-CV-l 8-3524

Plaintiff demanded that the Commissioner
of Public Safety issue title for 15
motorcycles that represented collateral on a
floor plan. Wells Fargo's is ultimately the
seller of the motorcycles.
Same

73-CV-l 8-3525

Same

73-CV-l 8-3526

Same

73-CV-18-3527

Same

73-CV-l 8-3528

Same

73-CV-18-3529

Same

21a
73-CV-18-3530

Same

73-CV-18-3531

Same

73-CV-18-3532

Same

73-CV-18-3 533

Same

73-CV-l 8-3534

Same

73-CV-l 8-3535

Same

73-CV-l 8-3536

Same

73-CV-l 8-3537

Same

19HA-CV-18-2754

Settled

02-CV-18-5291

See Appendix H paragraph 4.

62-CV-18-6563

Removed to federal court

27-CV-18-19611

See Appendix H paragraph 5.

62-CV-18-8322

Settled

Information obtained by Jerald Hammann from Minnesota
Trial Court Public Access (MPA) Remote View from August
6-14, 2019.

22a

APPENDIX I
Minnesota Appellate Cases involving Wells Fargo as a
First-Named Party
January 1, 2014 - December 31, 2018 (Opinion File Date)
Original
Decision
Wells Fargo

Appellate
Result
Affirmed

Appendix H Notes
Paragraph 6.

A16-1263

Wells Fargo

Affirmed

Paragraph 7.

A15-1819

Wells Fargo

Affirmed

Paragraph 8.

A15-0478

Wells Fargo

Affirmed

Paragraph 9.

A14-0868

Wells Fargo

Affirmed

Paragraph 10.

A15-0110

Wells Fargo

Affirmed

Paragraph 11.

A13-1418 „

Wells Fargo

Affirmed

Paragraph?.

A15-1557

Wells Fargo

Affirmed

None. Court Trial

A13-1-839

Wells Fargo

Affirmed

None. Trust
Proceeding

Case No.
A16-0737,
A16-1161

Favors

23a

Case No.
A13-1417

Original
Decision
Favors
Wells Fargo

Appellate
Result
Affirmed

Appendix H Notes
None. Release of
Appeal Bond

Information obtained by Jerald Hammann from Minnesota
State Law Library Opinion Archive from August 16-22,
2019.

24a

APPENDIX J
Contested Minnesota State Court Cases Involving Wells
Fargo as a First-Named Plaintiff or First-Named
Defendant
January 1,2014 - December 31, 2018
Case No. 27-CV-14-21010: Plaintiff slipped and fell
1.
on an icy sidewalk near a Wells Fargo ATM machine. The
jury concluded that Wells Fargo was 55% negligent for the
plaintiffs fall and that the plaintiff was 45% negligent. As
Minnesota is a comparative fault state, this would have
resulted in Wells Fargo being 55% liable for the plaintiff s
damages. However, the jury determined that neither party
was the direct cause of the accident, presumably because
they felt that the ice was the direct cause of the accident - a
fact ascertainable from even the most basic knowledge of the
properties of ice. 27-CV-14-21010 Index #66. Based on
these jury findings, the district court judge dismissed the
plaintiffs claims against Wells Fargo with prejudice,
denying the plaintiff relief. Wells Fargo prevailed because
the court asked the wrong question of the jury and further
because the judge then elected to ignore the jury findings
which accounted for the error in the question. Judgment
against the plaintiff was entered for costs and disbursements
totaling $8,265.78. 27-CV-14-21010 Events & Orders of the
Court.
Case No. 55-CV-l6-4203: An unrepresented litigant
2.
claimed a breach of contract claim for Wells Fargo’s failure
to have a “face to face” interview with him before three
mortgage payments were unpaid, and then subsequently

25a
foreclosing on an FHA mortgage. 55-CV-16-4203 Index #2.
His motion to proceed in forma pauperis was denied because
the district court found that "[t]he action is frivolous." 55CV-16-4203 Index #9. However, this cause of action has
been recognized in numerous states, including Minnesota.
See Dan Harry v. PNC Bank, N.A., C.A. No. 17-136 WES,
2018 WL 1083581, at *4 (D.R.I. Feb. 27, 2018), citing
Njema v. Wells Fargo Bank, N.A., 124 F. Supp. 3d 852 (D.
Minn. 2015) (bank's failure to hold face-to-face meeting is a
breach of the mortgage contract).
Case No, 27-CV-HC-16-719: Unrepresented litigant
3.
Hammann claimed Wells Fargo failed to provide him with a
90-day notice to vacate and improperly locked him out of the
residential property. The district (and appellate) court
refused to even acknowledge the existence of the 90-day
notice right provided by the Protecting Tenants at
Foreclosure Act of 2009 and by Minn. Stat.
§504B.285(la)(a). 27-CV-HC-16-719 Index #217-13, #13,
#22, #28. Acknowledging the existence of the 90-day notice
requirement would have resulted in the plaintiff prevailing
on his action. See Mik v. Federal Home Loan Mortg. Corp.,
743 F. 3d 149 (6th.Cir. 2014).
4.
Case No, 02-CV-18-5291: A represented litigant
claimed Wells Fargo’s process server did not serve her
personally, but instead left a foreclosure notice on her lawn.
As the plaintiff filing the action, she had already invoked the
jurisdiction of the court over herself and her claims and was
affirmatively requesting that it determine the merits of her
claims. Nonetheless, the district court erroneously applied a
ruling relevant to a defendant’s assertion of the affirmative
defense of a court’s lack of personal jurisdiction over them
to find that the present plaintiff “waived her insufficient
service of process claims by moving for summary judgment

26a
on other grounds.” 02-CV-18-5291 Index #31, Conclusions
111-12.
Case No. 02-CV-18-19611: An unrepresented
5.
litigant sought to enjoin or set aside a sale pursuant to Minn.
Stat. § 582.043 (Loss Mitigation; Mortgage Foreclosure Dual
Tracking). Wells Fargo moved for dismissal of this claim,
arguing as its sole basis for dismissal that plaintiffs August
17, 2015, notice of “lis pendens was voided and is treated as
not filed, which creates a conclusive presumption that Wells
Fargo complied with Minn. Stat. § 582.043. See Minn. Stat.
§ 582.043, subd. 7(b).” 27-CV-18-19611 Index #11 at 10.
Wells Fargo dismissal memorandum did not assert a res
judicata or collateral estoppel affirmative defense which
would normally mean that it had waived these affirmative
defenses. Id. Further, its argument would have failed before
an unbiased judiciary. A lis pendens is “recorded” without
regard to whether it is later voided. Minn. Stat.
§582.043(7)(b). Rendering something “void” does not mean
it never came into existence. See Borchardt v. Kulick, 234
Minn. 308, 319, 48 N.W.2d 318, 325 (1951) (“the statute of
frauds does not render a contract absolutely void in the sense
that no contract ever comes into existence”). The district
court completely ignored Wells Fargo’s sole argument for
dismissal of this claim and instead dismissed the claim sua
sponte on other grounds not presented by Wells Fargo. 27CV-18-19611 Index #20. While it is unclear from the record
whether the plaintiff was provided the opportunity to be
heard on this new sua sponte argument, it is clear that the
plaintiff was never provided with reasonable notice. See 27CV-18-19611 Register of Actions.
Case Nos. A16-0737 and A16-1161: Consolidated
6.
cases are discussed above at ^[2 in relation to the 27-CV-HC16-719 case.

27a
Case Nos. A16-1263 and A13-1418: Both of these
7.
cases involve the same error. The fourth element of a proper
eviction requires that a party seeking eviction must prove
that... (4) the plaintiff is entitled to possession of the
property. Minn. Stat. §504B.285(1). While a sheriffs
certificate provides prima facie evidence that all the
requirements of law have been met and that the purchaser
has obtained title (see Minn. Stat. §§ 580.12, .19 (2016)), all
the phrase “prima facie” means is “at first sight.” Black's
Law Dictionary Free Online Legal Dictionary 2nd Ed. When
a party opposing eviction raises a credible claim that a
plaintiff is not entitled to possession of the property, the
prima facie characteristic of the sheriffs certificate is no
longer sufficient for the party seeking eviction to prevail, and
the party seeking eviction must sustain its burden to fullyprove the fourth element. Therefore, affirming the district
court rulings was erroneous.
8.
Case No. A15-1819: Wells Fargo was initially
denied summary judgment but was later granted summary
judgment pursuant to a motion for reconsideration. Wells
Fargo had paid a contractor to remediate problems with a
house it obtained through foreclosure. Wells Fargo never
monitored its agent’s performance on the remediation efforts
or verified that the problems were actually remediated
(which they weren’t). Wells Fargo also failed to disclose the
remediation efforts to buyers, instead relying upon its “as-is”
terms of contract to argue a lack of duty to disclose, despite
the fact that disclosure of known material facts that could
affect “an ordinary buyer's use and enjoyment of the
property” is always required by Minnesota Law even for “asis” contracts. Minn. Stat. §513.55 (as to Wells Fargo) and
§82.68(3)(a) (as to Wells Fargo’s real estate broker agents).
The failure in disclosure in this case was not solely as to the
“remaining problems” as characterized by the court of
appeals, but instead as to the initial problems requiring

28a
remediation, which reappeared after the home was sold.
Therefore, affirming the district court ruling was erroneous.
Case No. A15-0478: This is another case involving
9.
the most basic knowledge of the properties of ice. In the late
Winter and early Spring in Minnesota, outdoor moisture
often goes through repeated freeze-thaw cycles, freezing to
ice in the evening as temperatures drop and thawing back to
water in the late morning as temperatures rise. This freezethaw cycle is perpetuated for days at a time during this time
period by the melting of accumulated snow and ice. The
court of appeals found that these facts - which are well
within the common knowledge of the average Minnesota
juror - are “so technical that [they] would require expert
testimony. See Minn. R. Evid. 702.” This finding places
even the most ordinary knowledge within the province of
expert knowledge and correspondingly outside the province
of the jury’s traditional fact-finding powers. Denying the
right to a jury trial on this basis is constitutionallyimpermissible. Therefore, affirming the district court ruling
was erroneous.
10.
Case No. A14-0868: The opposing party submitted
into evidence a fax cover sheet and fax receipt confirmation
as proof that he had submitted a loss-mitigation worksheet to
Wells Fargo pursuant to Minn. Stat. §582.043. The court of
appeals denied that the fax cover sheet and fax receipt
confirmation sheet created a genuine issue of material fact
regarding whether a loss-mitigation worksheet was
submitted to Wells Fargo, instead claiming that only the
submission into evidence of the loss-mitigation worksheet
itself would create a genuine issue of material fact in dispute.
However, the submission into evidence of the loss-mitigation
worksheet, along with the fax cover sheet and confirmation
sheet, would actually have removed this issue from the
genuine issues of material fact in dispute in the case in a

29a
manner favorable to the party opposing Wells Fargo.
Without the loss-mitigation worksheet, a genuine issue of
material fact remained and neither party was entitled to
summary judgment relative to that argument.
Case No. A15-0110: This case, involving the same
11.
residential property and the claims of Hammann’s landlord,
focused on the meaning of Minn. Stat. §508.10. Without
explanation, the court of appeals inferred that the phrase
“application for registration” meant one specific form of
registration - that of land. However, §508.04 (Titles which
may be Registered) addresses registration of title and
§508.58 (Registration After Foreclosure; New Certificate)
addresses registration of title after foreclosure. It therefore
appears that Wells Fargo’s §508.58 application should have
been subject to §508.10 because there is no evidence that the
phrase “application for registration” does not - by its plain
meaning - mean all registration applications. Under §508.10,
the county district court has exclusive jurisdiction over all
registration applications, meaning that the court’s application
res judicata based on the decision of a court without subjectmatter jurisdiction was erroneous.

30a

APPENDIX K
Contract and Other Civil Cases With A Jury Trial (Held)
Event Code But With No Jury Verdict
January 1,2018 - December 31, 2018

Case No.
02CV17549

Jury
Trial
No

09CV142363

No

I 19HACV174412
L

No

02CV17467

No

| 11CV17991
62CV154170
j 71CV161213
86CV174631
64CV17404

No
No
No
No
Yes

70CV17892

Yes

File Notes
Settled 5 days before trial date. ,
No recorded verdict. Instead a
Court Trial.
Settled before trial.
Transcript shows 1-day trial,
but no documents evidencing
an actual trial. Judgment was
summary.

Claimed 4 hours of testimony
before settlement.
j

Judgment as a matter of law
granted for insufficient
evidence of harm to reputation.
No jury verdict as a result.

Information obtained by Jerald Hammann from the
Minnesota Judicial Branch through a public data request. It
would not provide all 201 civil cases where a jury trial was
reported in 2018, but did provide the 42 contract (26) and
Other Civil (16) cases where a jury trial was reported.

